Credit Union all cards upon request or upon termination of this Agreement
whether by you or the Credit Union. The Credit Union has the right to require
you to pay off your full account balance at any time after your account is
terminated, whether it is terminated by you or the Credit Union.
15) Unlawful Transactions. Your Credit Union credit card account(s)
may not be used for any illegal or unlawful transactions. You agree that
we may decline to process any transaction that we believe in good faith to
be for an illegal purpose. You agree that we will not be liable for declining
to process any such transaction. If we do process any transaction that
ultimately is determined to have been for an illegal purpose, you agree
that you will remain liable to us under this Agreement for any such
transaction notwithstanding its illegal nature. You agree that any illegal
use of the card will be deemed an act of default under this Agreement.
You further agree to waive any right to take legal action against us for
your illegal use of the card and to indemnify, defend, and hold us and
VISA International, Inc. and MasterCard International, Inc. harmless
from and against any lawsuits, other legal action, or liability that results
directly or indirectly from such illegal use.
16) International Transactions.
MasterCard Cards: If you effect an international transaction with your
MasterCard, MasterCard International will convert the charge into a U.S.
dollar amount. MasterCard International will use its currency conversion
procedure, which is disclosed to institutions that issue MasterCard cards.
Currently, the currency conversion rate used by MasterCard International
to determine the transaction amount in U.S. dollars for such transactions
is generally either a government-mandated exchange rate or a wholesale
exchange rate selected by MasterCard International for the applicable
currency on the day the transaction is processed, which rate may differ
from the applicable rate on the date the transaction occurred or when the
transaction is posted to your account. We will charge a Foreign Transaction
Fee of up to 1% on all international purchase, cash disbursement, and
account credit transactions, even if there is no currency conversion. The
Foreign Transaction Fee is a non-periodic finance charge and does not accrue
interest. There is no grace period for repayment of international transactions
in order to avoid the Foreign Transaction Fee.
VISA Cards: If you effect an international transaction with your VISA Card, the
rate of exchange between the transaction currency and the billing currency
used for processing the international transaction will be a rate selected by
VISA from the range of rates available in wholesale currency markets for the
applicable central processing date, which rate may vary from the rate VISA
itself receives or the government-mandated rate in effect for the applicable
central processing date. We will charge a Foreign Transaction Fee of up to
1% on all international purchase, cash disbursement, and account credit
transactions, even if there is no currency conversion. The Foreign Transaction
Fee is a non-periodic finance charge and does not accrue interest. There is no
grace period for repayment of international transactions in order to avoid
the Foreign Transaction Fee.

17) Visa Emergency Cash And Emergency Card Replacement
Services. If this service is available, you acknowledge that we may provide
personal data concerning you to VISA USA, its members, or their respective
contractors for the purpose of providing you with VISA Emergency Cash
and Emergency Card Replacement Services, and you consent to the release of
your information for these purposes.
18) CREDIT INVESTIGATION: In conjunction with your application for credit
and, if approved, maintenance of your account, you agree that we have the
right to investigate your credit and employment history, to verify your credit
references, to request and use credit reports, and to report the way you pay
your account to credit bureaus and other interested parties.
19) Fair Credit Reporting Act Notification. We may report the status
and payment history of your account to credit reporting agencies each
month. If you believe that the information that we have reported is
inaccurate or incomplete, please notify us in writing at PO Box 889,
Texas City, TX 77592-0889. Please include your name, address, telephone
numbers and account number.
20) Additional Provisions. Each provision of this Agreement must
be considered as part of the total agreement and cannot, in any way, be
severed from it. However, you also agree that should any part of the Agreement
be found invalid, it will in no way affect the remainder of the Agreement. You
understood that the validity, construction and enforcement of this Agreement
shall be governed by the laws of the State of Texas. The Credit Union does
not warrant any merchandise or services purchased by you with the card. All
purchases and cash advances are extended at the option of the merchant or
cash advancing financial institution and the Credit Union is not responsible
for refusal of any merchant or financial institution to honor your card. The
card(s) remain our property at all times, and you agree to immediately
surrender the cards upon demand. We can accept late payments or partial
payments, or checks or money orders marked “payment in full” without
losing any of our rights under this Agreement. We can also delay enforcing
any of our rights under this Agreement any number of times without losing
them. You expressly waive presentment for payment, demand, protest, and
notice of protest and dishonor of same. You agree to give us prompt notice
of any change in your name, mailing address, telephone number or place of
employment.
This notice tells you about your rights and our responsibilities
under the Fair Credit Billing Act.

You may also contact us on the Web: www.amocofcu.org
In your letter, give us the following information:
Account information: Your name and account number.
Dollar amount: The dollar amount of the suspected error.
Description of problem: If you think there is an error on your
statement, describe what you believe is wrong and why you
believe it is a mistake.

•
•
•

You must contact us:
Within 60 days after the error appeared on your statement.
At least 3 business days before an automated payment is
scheduled, if you want to stop payment on the amount you think
is wrong.

•
•

You must notify us of any potential errors in writing or electronically. You
may call us, but if you do we are not required to investigate any potential
errors and you may have to pay the amount in question.
What Will Happen After We Receive Your Letter
When we receive your letter, we must do two things:
1. Within 30 days of receiving your letter, we must tell you that we received
your letter. We will also tell you if we have already corrected the error.
2. Within 90 days of receiving your letter, we must either correct the error or
explain to you why we believe your statement is correct.
While we investigate whether or not there has been an error:

•
•
•
•

Your Rights if You are Dissatisfied with Your Credit Card Purchases
If you are dissatisfied with the goods or services that you have purchased
with your credit card, and you have tried in good faith to correct the problem
with the merchant, you may have the right not to pay the remaining amount
due on the purchase. To use this right, all of the following must be true:

Credit Card
Agreement

1. The purchase must have been made in your home state or within 100 miles
of your current mailing address, and the purchase price must have been
more than $50. (Note: Neither of these are necessary if your purchase was
based on an advertisement we mailed to you, or if we own the company
that sold you the goods or services.)
2. You must have used your credit card for the purchase. Purchases made
with cash advances from an ATM or with a check that accesses your credit
card account do not qualify.
3. You must not yet have fully paid for the purchase. If all of the criteria
above are met and you are still dissatisfied with the purchase, contact us
in writing or electronically at:
AMOCO Federal Credit Union
P.O. Box 889
2300 Texas Ave.
Texas City, TX 77592-0889
www.amocofcu.org
While we investigate, the same rules apply to the disputed amount as
discussed above. After we finish our investigation, we will tell you our
decision. At that point, if we think you owe an amount and you do not pay,
we may report you as delinquent.

After we finish our investigation, one of two things will happen:

•
•

What to Do if You Find a Mistake on Your Statement
If you think there is an error on your statement, write to us at:
AMOCO Federal Credit Union
P.O. Box 889
2300 Texas Ave.
Texas CityTX 77592-0889

We cannot try to collect the amount in question, or report you as
delinquent on that amount.
The charge in question may remain on your statement, and we
may continue to charge you interest on that amount.
While you do not have to pay the amount in question, you are
responsible for the remainder of your balance.
We can apply any unpaid amount against your credit limit.

•

reported you as delinquent, and we must let those organizations
know when the matter has been settled between us.
If we do not follow all of the rules above, you do not have to
pay the first $50 of the amount you question even if your bill is
correct.

•

If we made a mistake: You will not have to pay the amount in
question or any interest or other fees related to that amount.
If we do not believe there was a mistake: You will have to pay the
amount in question along with applicable interest and fees. We
will send you a statement of the amount you owe and the date
payment is due. We may then report you as delinquent if you do
not pay the amount we think you owe.
If you receive our explanation but still believe your statement
is wrong, you must write to us within 10 days telling us that
you still refuse to pay. If you do so, we cannot report you as
delinquent without also reporting that you are questioning your
statement. We must tell you the name of anyone to whom we

Mailing Address
P.O. Box 889
Texas City, TX
77592-0889
Phone Numbers
PH 409.948.8541
TX 800.392.3813
US 800.231.6053
www.amocofcu.org

CREDIT CARD AGREEMENT
This Agreement Covers: VISA® Gold, VISA Platinum, MasterCard® Gold, and/or
MasterCard Platinum with AMOCO Federal Credit Union.
By using or permitting another to use your VISA Gold, VISA Platinum, MasterCard
Gold, and/or MasterCard Platinum card(s), you are accepting this Agreement
and agreeing to pay all amounts that will be owing in connection with your
account. You also acknowledge receipt of a copy of this Agreement. In this
Agreement, the words “you” and “your” mean each person who signed this
application and his/her heirs and personal representatives, and any other
person that uses the card. “We,”“our,”“us,” and “Credit Union” mean AMOCO
Federal Credit Union. All of your obligations under this Agreement, including
any INTEREST CHARGES, are owed to the Credit Union. The word “account”
means any number of VISA Gold, VISA Platinum, MasterCard Gold, and/or
MasterCard Platinum accounts established for you under this Agreement. “Use
of this card” means any procedure used by you, or someone authorized by you,
to make a purchase or obtain a cash advance whether or not the purchase or
advance is evidenced by a signed written document. “Unauthorized” use of
the card” means that use of the card by someone other than you who does
not have actual, implied, or apparent authority for such use, and from which
you receive no benefit.
SECURITY INTEREST AND PLEDGE OF SHARES: YOU PLEDGE TO
US AND GRANT TO US A CONSENSUAL SECURITY INTEREST IN
ALL INDIVIDUAL AND JOINT ACCOUNTS MAINTAINED WITH
US IN WHICH YOU HAVE INTEREST NOW OR IN THE FUTURE,
EXCEPT AMOUNTS HELD IN AN IRA OR KEOGH PLAN, TO SECURE
REPAYMENT OF AMOUNTS OWING UNDER THIS CREDIT CARD
ACCOUNT, TOGETHER WITH ANY FEES OR COSTS WHICH MAY BE
ASSESSED AGAINST THE ACCOUNT UNDER THE TERMS OF THIS
AGREEMENT. THE GRANTING OF THIS SECURITY INTEREST IS A
CONDITION FOR THE ISSUANCE OF ANY CARD THAT YOU MAY USE,
DIRECTLY OR INDIRECTLY, TO OBTAIN EXTENSIONS OF CREDIT
UNDER THIS AGREEMENT. IF YOU ARE IN DEFAULT UNDER THIS
AGREEMENT, YOU AUTHORIZE US TO APPLY ANY AND ALL AMOUNTS
ON DEPOSIT IN ANY ACCOUNT IN WHICH YOU HAVE AN INTEREST
NOW OR IN THE FUTURE TO THE PAYMENT OF ALL AMOUNTS
OWING UNDER THIS CREDIT CARD ACCOUNT.
Additional Security: If you have other loans with us, now or in the future,
collateral securing such loans may also secure your obligations under this
Agreement. This security interest does not apply to Home Equity loans, or any
other dwelling-secured loan. Please read any security agreement you sign
in order to determine if the collateral also secures your obligations under this
Agreement and any other agreements you have with us.
1) Extensions of Credit. If your application is approved, the Credit Union may,
at its discretion, establish a credit card account in your name and cause one or

more cards to be issued to you or those designated by you. In such event, you
authorize the Credit Union to pay for your account, all items reflecting credit
purchases and cash advances obtained through use of the card. The Credit Union,
may at its discretion, issue checks to you which may be used for any purpose
other than making a payment for credit to your account. Any check written by
you will be considered as a cash advance, even if used to make a purchase. By
signing such a check, you authorize the Credit Union to pay the item for the
amount indicated and post such amounts as cash advance to your account. The
Credit Union does not have to pay any item which would cause the outstanding
balance in your account to exceed your credit limit. Please refer to the attached
Rate and Fee Disclosures for charges that apply in connection with credit card
convenience checks.
2) Joint Applicant Liability. If this Agreement is executed by more than
one person, each of you shall be jointly and individually liable to us for all
charges made to the account, including applicable fees. In addition, you agree
that each of you designates the other as agent for the purpose of making
purchases extended under this Agreement and each use of your account shall
be an extension of credit to all. Notice to one of you shall constitute notice
to all. Any joint cardholder may remove him/herself from responsibility for
future purchases at any time by notifying us in writing. However, removal
from the account does not release the joint cardholder from any liability
already incurred.
3) Others Using Your Account. If you allow anyone else to use your card, you
will be liable for all credit extended to such persons. You promise to pay for all
purchases, balance transfers, and cash advances made by anyone whom you
authorize to use your card, whether or not you notify us that he or she will be
using it. If someone else is authorized to use your card and you want to end
that person’s privilege, you must notify us in writing, and if he or she has a
card, you must return the card with your written notice for it to be effective.
4) Credit Limits. You promise the payments made for your account resulting
from use of the card will, at no time, cause the outstanding balance in your
account to exceed your credit limit as disclosed to you at the time you receive
your card or as adjusted from time to time at the discretion of the Credit Union.
5) Promise To Pay. You promise to repay the Credit Union all payments made
for your account resulting from use of the card, plus INTEREST CHARGES on the
unpaid balance. At the end of each monthly billing cycle, you will be furnished
with a periodic statement showing (1) the “previous balance” (the outstanding
balance in the account at the beginning of the billing cycle), (2) the amount of all
cash advances, balance transfers, purchases and INTEREST CHARGES posted to
your account during the billing cycle, (3) the amount of all payments and credits
posted to your account during the billing cycle, and (4) the “new balance” which
is the sum of (1) and (2) less (3). You agree to pay on or before the “payment
due date” shown on the periodic statement either the entire “new balance”, or
a minimum payment equal to 3% of the “new balance”, or $18.00, whichever is
greater, if the “new balance” is $18.00 or less, you will pay in full.

6) Cost of Credit. You will pay INTEREST CHARGES for all advances made
against your account. INTEREST CHARGES for cash advances and balance
transfers begin to accrue on the date of the advance. New purchases will not
incur an INTEREST CHARGE on the date they are posted to your account if you
have paid the account in full by the “payment due date” shown on your most
recent monthly statement, or if there was no previous balance.
If your account features an introductory rate, you will pay a fixed introductory rate
for all advances made against your VISA Gold, MasterCard Gold, VISA Platinum,
or MasterCard Platinum account at the daily periodic rate and corresponding
ANNUAL PERCENTAGE RATE (APR) set forth in the Rate Disclosure attached to
this Agreement. Any introductory rate applicable to your account applies until
the first day of the billing cycle that includes the six-month anniversary date of
the opening of your account.
Thereafter, your account is subject to a variable rate, and the APR may increase.
The applicable periodic rate used to compute the INTEREST CHARGES for
all advances is based on an index (the “Index”), which is the Prime Rate as
published in the Money Rates section of The Wall Street Journal on the 10th day
of the month and is subject to change monthly. If the 10th falls on a weekend or
a holiday in any given month, then we will use the Prime Rate published on the
next business day for that month. Any change in the Index will be effective on
the first day of the billing cycle in the month following the date of the change.
An increase in the Index may result in an increase in the periodic rate, which in
turn, may result in higher payments. We retain the discretion not to increase
your rate when the Index increases, but such action does not preclude us from
increasing the rate in step with Index increases on future occasions.
We will add a margin to the Index to determine your daily periodic rate and
corresponding APR. The margin for VISA Gold, MasterCard Gold, VISA Platinum,
and MasterCard Platinum accounts is set forth in the Rate Disclosure attached
to this Agreement.
The daily periodic rates and corresponding APRs for VISA Gold, MasterCard Gold,
VISA Platinum, and MasterCard Platinum accounts are set forth in the Rate
Disclosure attached to this Agreement. The maximum rate for all accounts will
never exceed a daily periodic rate of .049315%, which corresponds to an APR
of 18%.
The INTEREST CHARGE is figured by applying the periodic rate to the “balance
subject to INTEREST CHARGE” which is the “average daily balance” of your
account, including certain current transactions. The “average daily balance” is
arrived at by taking the beginning balance of your account each day, adding in
any new cash advances and balance transfers, and unless you pay your account
in full by the “payment due date” shown on the previous monthly statement
or there is no previous balance, adding in new purchases, and subtracting any
payments or credits and unpaid INTEREST CHARGES. This gives us the daily
balance. The daily balances for the billing cycle are then added together and
divided by the number of days in the billing cycle. The result is the “average
daily balance.” The INTEREST CHARGE is determined by multiplying the

“average daily balance” by the number of days in the billing cycle and applying
the periodic rate to the product.
No additional INTEREST CHARGES will be incurred whenever you pay the
account in full by the “payment due date” as reflected on your most recent
monthly statement. The “payment due date” is not less than 25 days from the
billing cycle closing date shown on your statement. You may pay any amounts
outstanding at any time without penalty for early repayment.
7) Other Charges. Please refer to the attached Rate and Fee Disclosures for
other charges that apply in connection with your credit card account.
8) Credit Insurance. Credit life and/or credit disability insurance is optional. If
you qualify for and purchase the insurance from us, you authorize us to add the
insurance premiums monthly to your loan balance and charge you interest on
the entire balance. If you elect credit insurance, your payments may increase
or the period of time necessary to repay your advance may be extended. The
credit insurance rates may change. If the rates change, we will provide any
notices required by applicable law.
9) Visa Card Liability for Unauthorized Use. If you notice the loss or
theft of your VISA card or a possible unauthorized use of your VISA card, you
should call the Credit Card Center immediately at:
(800) 442-4757
Under VISA’s zero liability policy, you will not be liable for unauthorized use
of your VISA card once you notify us orally or in writing of the loss, theft, or
possible unauthorized use. The foregoing zero liability policy does not apply
if you are grossly negligent or fraudulent in the handling of your account or your
VISA card, nor does it apply in the case of cash advances obtained at an ATM.
You will not be liable for any unauthorized use that occurs after you notify
us. You may, however, be liable for unauthorized use that occurs before your
notice to us. In any case, your liability will not exceed $50.00.
10) MasterCard Liability for Unauthorized Use. If you notice the loss or
theft of your MasterCard or a possible unauthorized use of your MasterCard,
you should call the Credit Card Center immediately at:
(800) 442-4757
Under MasterCard’s zero liability policy, you will not be liable for any
unauthorized use of your MasterCard once you notify us orally or in writing
of the loss, theft, or possible unauthorized use and you meet the following
conditions: (1) you have exercised reasonable care with the MasterCard;
(2) you have not reported two or more incidents of unauthorized use of the
MasterCard within the previous 12 months; and (3) you have maintained your
account in good standing. The foregoing zero liability policy does not apply to
cash advances obtained at an ATM.

You will not be liable for any unauthorized use that occurs after you notify
us. You may, however, be liable for unauthorized use that occurs before your
notice to us. In any case, your liability will not exceed $50.00.
11) Crediting Payments. All payments on your account will be applied first
to collection costs, then to any INTEREST CHARGES and other fees due, and
then to the unpaid principal balance. All payments made on your account at
the address designated for payment on the monthly periodic statement or
at any of our branch offices during our business hours will be credited to your
account on the date of receipt. If we receive a payment on a day that is not a
business day for us or at a time that we are not open, your payment may be
credited on the first business day following receipt. Interest paid or agreed to
be paid shall not exceed the maximum amount permissible under applicable
law, and in any contingency whatsoever, if we shall receive anything of value
deemed interest under applicable law which would exceed the maximum
amount of interest permissible under applicable law, the excessive interest
shall be applied to the reduction of the unpaid principal amount or refunded
to you.
12) Default. You will be in default: (1) if you fail to make any payment on
time; (2) if you fail to keep any promises you have made under this or any
other agreement with the Credit Union; (3) if you are the subject of an order
for relief Under Title 11 of the U.S. Code (Bankruptcy); (4) if anyone tries, by
legal process, to take any of your money in the Credit Union; (5) if you have
given the Credit Union false or inaccurate information in obtaining your card, or
(6) if anything happens which the Credit Union reasonably believes endangers
your ability to repay what you owe.
13) Acceleration. If you are in default; the Credit Union may, without prior
notice to you, call any amounts you still owe immediately due and payable
plus INTEREST CHARGES which shall continue to accrue until the entire amount
is paid. You expressly waive any right to notice of demand, including but
not limited to, demand upon default, notice of intention to accelerate, and
notice of acceleration. The card remains the property of the Credit Union at all
times, and you agree to immediately surrender the card upon demand of the
Credit Union. You agree to pay all reasonable costs of collection, including
court costs and attorney’s fees imposed and any cost incurred in the recovery
of the card.
14) Termination or Changes. The Credit Union may add to, delete, or
change the terms of this Agreement from time to time. Notice of any change
will be given in accordance with applicable law. If permitted by law and
specified in the notice to you, the change will apply to your existing account
balance as well as to future transactions. Either you or the Credit Union may
terminate this Agreement at any time, but termination by you or the Credit
Union will not affect your obligation to pay the account balance plus any
INTEREST CHARGES and other charges you owe under this Agreement. You
are also responsible for all transactions made to your account after termination,
unless the transactions were unauthorized. The card or cards you receive remain
the property of the Credit Union and you must recover and surrender to the

